   October 07, 2002




Readiness

DoD Use of the North Atlantic Treaty
Organization Maintenance and
Supply Agency
(D-2003-005)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ACSA                  Acquisition Cross-Servicing Agreement
NAMSA                 North Atlantic Treaty Organization Maintenance and Supply
                        Agency
NATO                  North Atlantic Treaty Organization
USAREUR               U.S. Army, Europe
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                        Logistics
WSP                   Weapon System Partnership
         Office of the Inspector General of the Department of Defense
Report No.D-2003-005                                                   October 07, 2002
  (Project No. D2002LG-0001)

            DoD Use of the North Atlantic Treaty Organization
                    Maintenance and Supply Agency

                                Executive Summary

Who Should Read This Report and Why? DoD civilians and military personnel
authorized to make logistics support decisions should read this report. This report
discusses some of the impediments that prevent maximum use of the North Atlantic
Treaty Organization (NATO) Maintenance and Supply Agency as a secondary source of
maintenance.

Background. NATO created the NATO Maintenance and Supply Organization in 1958
to provide logistics services in support of weapon systems held in common by NATO
nations. The NATO Maintenance and Supply Agency is the executive arm of the NATO
Maintenance and Supply Organization. NATO nations have established weapon system
partnership agreements through the NATO Maintenance and Supply Agency to provide
support for weapon systems two or more nations hold in common. The NATO
Maintenance and Supply Agency consolidates the weapon system requirements to make
bulk procurements of services and supplies and to achieve economies of scale.

Results. DoD could improve its use of the NATO Maintenance and Supply Agency for
combined logistics support and reduce costs. Specifically, the Army did not join the
Helicopters Weapon System Partnership Agreement. In addition, the Navy did not
maximize its use of a weapon system partnership agreement. As a result, the Military
Departments will incur surcharges when using existing weapon system partnership
agreements that the United States is not a member of. In FY 2004, the Army could incur
about $1 million in additional costs for its projected helicopter component maintenance
and repair workload. Also, the Navy may experience readiness shortfalls while it awaits
high-demand, depot-level repairables for the P-3 Orion requisitioned from Navy sources.
In addition, the Military Departments may not realize other potential benefits from using
the NATO Maintenance and Supply Agency to support their combined logistics support
requirements, to include consolidated procurement of supplies, storage, and services.
DoD Directive 2010.8, “Department of Defense Policy for NATO Logistics,”
November 12, 1986, should be revised to provide the Military Departments with
documented procedures for submitting requirements and for joining and using weapon
system partnership agreements so that the NATO Maintenance and Supply Agency can
be used to the maximum for combined logistics support. The Army could realize
potential monetary benefits by joining the Helicopters Weapon System Partnership
Agreement. The Navy could reduce lead time for high-demand, depot-level repairables
for the P-3 by using the C-130 Hercules/P-3 Orion Weapon System Partnership
Agreement. (See the Finding section of the report for the detailed recommendations.)
Management Comments and Audit Response. The Under Secretary of Defense for
Acquisition, Technology, and Logistics nonconcurred, stating that procedures are in
place. The Commander, Army Materiel Command nonconcurred, stating that the Army
should submit logistics requirements to the Under Secretary of Defense for Acquisition,
Technology, and Logistics. The Acting Assistant Secretary of the Navy (Research,
Development and Acquisition) concurred with the recommendation to use the NATO
Maintenance and Supply Agency upon the establishment of procedures by the Under
Secretary of Defense and when the NATO Maintenance and Supply Agency is
cost-effective and does not negatively impact readiness. Although not required to
comment, the Army Security Assistance Command and U.S. Army, Europe provided
comments. The Chief, Country Program Management Division, Europe Directorate of
the Army Security Assistance Command did not agree with our recommendation, but did
agree that the decision to join the Helicopters Weapon System Partnership Agreement
should be reexamined. The Chief, Internal Review and Audit Compliance Office,
U.S. Army, Europe agreed with the recommendation.

Comments from the Under Secretary of Defense for Acquisition, Technology, and
Logistics were partially responsive. Comments from the Army were not responsive.
Although procedures exist for DoD support to NATO Maintenance and Supply Agency
through the foreign military sales program, procedures for logistics support to DoD,
using the NATO Maintenance and Supply Agency, need to be established. We also
believe that joining the Helicopters Weapon System Partnership Agreement could be
beneficial to the United States and the decision deserves to be reexamined. We request
that the Under Secretary of Defense for Acquisition, Technology, and Logistics and the
Commander, Army Materiel Command reconsider their positions and provide comments
on the final report by December 7, 2002. A discussion of management comments is in
the Finding section of the report and the complete text is in the Management Comments
section.




                                           ii
Table of Contents

Executive Summary                                                             i

Background                                                                   1

Objectives                                                                   3

Other Matters of Interest                                                    3

Finding
     DoD Use of Combined Logistics Support                                    5

Appendixes
     A. Scope and Methodology                                                16
          Management Control Program Review                                  19
     B. Prior Coverage                                                       20
     C. Weapon System Partnership Agreements                                 22
     D. Report Distribution                                                  23

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics   25
     Department of the Army                                                  29
     Department of the Navy                                                  35
Background
    Sections 2460 and 2466, title 10, United States Code (10 U.S.C.), stipulate that
    not more than 50 percent of the annual funding for depot maintenance that is
    provided to the Military Departments and Defense agencies can be used for work
    non-Federal employees accomplish. The Military Departments must account for
    depot maintenance that contractors perform. During FY 2001, DoD spent
    $17.2 billion on depot-level maintenance. For FY 2001, the Army reported
    45.2 percent, the Navy 45.6 percent, and the Air Force 51.9 percent of their depot
    maintenance workload was performed by non-Federal employees. The North
    Atlantic Treaty Organization (NATO) Maintenance and Supply Organization is
    an alternative source of repair and supply for deployed DoD forces mainly in the
    U.S. European Command area of responsibility and is also subject to the legal
    constraints of the 50-percent rule. However, the annual dollars spent on NATO
    Maintenance and Supply Agency (NAMSA) services are a minor fraction of the
    amount DoD spends each year on maintenance and repair. Therefore, the
    increased use by DoD of NAMSA services would have minimal to no impact on
    the percentage of depot maintenance performed by non-Federal employees.

    NATO Maintenance and Supply Agency. NATO created the NATO
    Maintenance and Supply Organization in 1958 to provide logistics service in
    support of weapon systems NATO nations hold in common. NAMSA is the
    executive arm of the NATO Maintenance and Supply Organization. To make
    bulk procurements of services and supplies and achieve economies of scale,
    NAMSA consolidates the requirements of nations. NAMSA is a nonprofit NATO
    organization. In 2001, NAMSA reported a workforce of 905, with a contractor
    support base of about 10,000. The majority of the NAMSA workload was
    contracted through either the original equipment manufacturer or Government-
    approved businesses.

    In 2001, NAMSA placed contracts to meet customer requirements valued at
    $386 million, of which about $120 million were placed with U.S. industries.
    In 2001, the United States spent $108 million to obtain logistics support through
    NAMSA. The majority of NAMSA services is provided to the Military
    Department Components of the U.S. European Command using cooperative
    agreements such as Acquisition Cross-Servicing Agreements (ACSAs) and
    weapon system partnership (WSP) agreements. The U.S. European Command
    may also provide logistics support to other geographic theaters, such as the
    U.S. Central Command.

    Acquisition Cross-Servicing Agreements. The United States may enter into an
    ACSA with NATO nations and organizations, or other eligible countries, for the
    mutual exchange of logistics support, supplies, and services when the required
    support is not reasonably available from U.S. commercial sources. When the
    United States receives support through an ACSA, the United States must
    reimburse the providing nation either with replacement-in-kind or equal value
    exchange under reciprocal pricing principles. Because specific contract
    requirements are waived, using an ACSA allows logistics support to be obtained
    easier and faster than through foreign military sales or through the Federal
    acquisition process. However, ACSAs are subject to an annual dollar limitation


                                         1
and, therefore, must be budgeted and accounted for separately from other
transactions. Through ACSA implementing arrangements, the Military
Departments can obtain logistics support, supplies, and services from NAMSA.

Weapon System Partnership Agreements. NATO nations have established
WSP agreements through NAMSA that provide support to weapon systems two
or more nations hold in common. Those agreements are for specific weapon
systems and provide for the transfer or acquisition of combined logistics support,
supplies, or services. A WSP agreement includes only those nations that request
participation in the logistics support mission. Each member nation has an agreed-
upon cost sharing formula for administrative and operational expenditures. The
cost sharing formula is unique for each WSP agreement and is based on a nation’s
projected use of NAMSA.1 If a nation is not a member of a WSP agreement, but
wishes to use the services provided under a WSP agreement, a surcharge is
applied to each transaction. DoD supports 13 WSP agreements and is a member
of 6 WSP agreements. For the 13 WSP agreements, DoD provides technical
information, supplies, and services to NAMSA through the foreign military sales
program. As a member of the six WSP agreements, DoD can receive logistics
support, supplies, and services through NAMSA for the commonly owned
weapon systems covered by the agreements. The decision making authority for
the common logistics support of weapon systems will vary based on the Military
Department and type of weapon system. See Appendix C for a list of NAMSA
WSP agreements that DoD supports or is a member of.

Responsible Offices Within DoD. Within the Office of the Under Secretary of
Defense for Policy, the Defense Advisor, U.S. Mission to NATO formulates and
coordinates DoD policy in Europe. Within the Office of the Defense Advisor, the
Director of the Infrastructure, Logistics and Civil Emergency Planning Division is
also the U.S. member of the NAMSA Board of Directors, which oversees
NAMSA operations. The Under Secretary of Defense for Acquisition,
Technology, and Logistics (USD[AT&L]) implements DoD policy for NATO
logistics, which includes coordinating cooperative agreements for the United
States. The International Program Manager, Armaments Cooperation Atlantic
Directorate, in the USD(AT&L) Office of International Cooperation, is
responsible for coordinating logistics support requirements between DoD and
NAMSA and is also the deputy U.S. member of the NAMSA Board of Directors.
For foreign military sales, the Defense Security Cooperation Agency works with
the Military Departments’ security assistance staffs to coordinate their respective
participation in WSP agreements.

       Army. The Army provides support for 10 WSP agreements established
through NAMSA. The Army is a member of the Ammunition; M-60 Tank/M-110
Self-Propelled Howitzer; Multiple Launch Rocket System; Patriot; and Tube-
Launched, Optically-Tracked, Wire-Guided (TOW) Missiles WSP Agreements.
The Army Materiel Command is the decision making authority for the logistics
support of Army weapon systems and distributes maintenance and repair


1
    Although nations are members of WSP agreements, the Military Departments that use the
    agreement pay the annual fee for the nation to be a member. The annual membership fee can
    also be shared, thus reducing the cost to each Military Department.


                                             2
     workload among its components based on current and out-year projections. The
     Army Aviation and Missile Command is responsible for projecting aviation and
     missile component workload requirements.

            Navy. The Navy provides support for one WSP agreement established
     through NAMSA. The Navy is not a member of any WSP agreements. The
     Naval Air Systems Command is the decision making authority for the logistics
     support of Navy aviation weapon systems. The Naval Inventory Control Point
     Philadelphia is responsible for managing the component repair workload.

             Air Force. The Air Force provides support for two WSP agreements
     established through NAMSA. The Air Force is a member of the
     C-130 Hercules/P-3 Orion WSP Agreement. The Air Force Materiel Command is
     responsible for logistics support for Air Force weapon systems. The Air Force
     Materiel Command provides logistics support through its air logistics centers.
     The decision making authority for logistics follow-on support for the C-130
     aircraft is Warner Robins Air Logistics Center.


Objectives
     Our overall objective was to evaluate the DoD role in supporting NAMSA.
     Specifically, we determined whether DoD provided adequate oversight of WSP
     agreements; determined whether DoD ensured that sensitive data was protected;
     evaluated the process DoD used to allocate funds to NAMSA; reviewed DoD
     procurement practices as they applied to NAMSA; and reviewed DoD processes
     used to determine which systems or equipment would be supported through
     NAMSA. We also reviewed the management control program as it applied to the
     audit objectives. See Appendix A for a discussion of the audit scope and
     methodology and our review of the management control program. See
     Appendix B for prior coverage.


Other Matters of Interest
     During the survey phase of our audit, we determined that the USD(AT&L) Office
     of International Cooperation, Armaments Cooperation Atlantic Directorate, had
     provided adequate oversight of the development of WSP agreements that DoD
     supports through the foreign military sales program. In addition, we determined
     that DoD had ensured that sensitive data provided through foreign military sales
     was protected from unauthorized disclosure by reviewing the Military
     Departments’ foreign military sales cases for WSP agreements. We did not
     perform additional work in those areas during the audit phase.

     We also evaluated the processes DoD used to allocate funds to NAMSA. We
     determined that the Military Departments used different processes to fund WSP
     agreement transactions. The Army issued NATO standard agreement forms to
     obligate funds to NAMSA. The Navy and the Air Force issued military
     interdepartmental purchase requests directly to NAMSA, a non-DoD
     organization, to obligate funds. Although the Military Departments used different

                                         3
processes, representatives from the offices of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer and the Defense Finance and Accounting
Service stated that the prevailing guidance is silent on issuing military
interdepartmental purchase requests to non-DoD organizations and the action had
no negative impact.




                                   4
           DoD Use of Combined Logistics Support
           DoD could improve its use of NAMSA for combined logistics support and
           reduce costs. Specifically, the Army, which has 308 helicopters in the
           European theater, did not join the Helicopters WSP Agreement and the
           Navy did not maximize its use of the C-130 Hercules/P-3 Orion WSP
           Agreement. DoD did not maximize use of NAMSA for combined
           logistics support because USD(AT&L) did not develop procedures:

                   •   for the Military Departments to submit common weapon
                       system requirements to DoD for consideration of logistics
                       support through a WSP agreement,

                   •   to coordinate and submit other common DoD requirements for
                       consideration of NAMSA as a viable alternative source of
                       repair for combined logistics support, and

                   •   to join and use a WSP agreement.

           As a result, the Military Departments will incur surcharges when using
           existing WSP agreements that the United States is not a member of. In
           FY 2004, the Army could incur about $1 million in additional costs for its
           projected helicopter component maintenance and repair workload. Also,
           the Navy may experience readiness shortfalls while it awaits
           high-demand, depot-level repairables for the P-3 Orion requisitioned from
           Navy sources. In addition, the Military Departments may not realize other
           potential benefits from using NAMSA for their combined logistics support
           requirements, to include consolidated procurement of supplies, storage,
           and services.


Cooperative Agreements
    Chapter 138, “Cooperative Agreements with NATO Allies and other Countries,”
    of 10 U.S.C., contains two subchapters: “Acquisition Cross-Servicing
    Agreements” and “Other Cooperative Agreements,” such as a WSP agreement.
    Cooperative agreements are used to acquire or transfer logistics support, supplies,
    and services to the armed forces deployed outside the United States. The
    legislative authority, however, for ACSAs and WSP agreements is separate and
    distinct. To implement the legislation, DoD developed DoD Directive 2010.8,
    “Department of Defense Policy for NATO Logistics,” November 12, 1986, and
    DoD Directive 2010.9, “Mutual Logistic Support Between the United States and
    Governments of Eligible Countries and NATO Subsidiary Bodies,”
    September 30, 1988.

    Acquisition Cross-Servicing Agreements. Chapter 138, subchapter I,
    “Acquisition Cross-Servicing Agreements,” sections 2341 through 2350 of
    10 U.S.C. authorize the United States to provide--in return for the reciprocal
    provisions of logistics support, supplies, and services--mutual logistics support,
    supplies, and services to military forces of a country or organization. Under that


                                         5
    authority, certain restrictions are waived, including the requirement for
    competition. However, an ACSA may not be used to procure goods or services
    reasonably available from U.S. commercial sources. In addition, except during
    periods of hostilities, the United States may not exceed $200 million in
    reimbursable liabilities for any one fiscal year.

    Weapon System Partnership Agreements. Chapter 138, subchapter II, “Other
    Cooperative Agreements,” section 2350d, 10 U.S.C., states that the Secretary of
    Defense may enter into WSP agreements with governments of other NATO
    countries participating in the NATO Maintenance and Supply Organization. The
    purpose of a WSP agreement is to provide combined logistics support for
    commonly owned weapon systems for participating nations. Section 2350d also
    states that the Secretary of Defense may agree that the NATO Maintenance and
    Supply Organization contract for the supply and logistics support the United
    States requires. WSP agreements are not subject to the same restrictions as
    ACSAs, such as a reimbursement ceiling or acquiring goods and services
    reasonably available from U.S. commercial sources. The authority is in addition
    to, and not under, the authority of subchapter I.

    NATO Logistics. USD(AT&L) is the proponent for DoD Directive 2010.8 and
    DoD Directive 2010.9. DoD Directive 2010.8 provides policy for both mutual
    logistics support and combined logistics support. Mutual logistics support
    includes supply support arrangements, host nation support, and ACSAs.
    Combined logistics support includes NATO-managed activities, such as WSP
    agreements, and nationally managed activities, such as depots. The policy states
    that the United States shall rely maximally on combined NATO logistics support
    arrangements where practicable, unless doing so would be disadvantageous to the
    United States. Further, when the United States and other NATO allies field the
    same weapon system, the policy directs that the United States join with allies in a
    NATO Maintenance and Supply Organization WSP agreement for combined
    logistics support in Europe, for those functions that are practicable, unless such an
    agreement would be disadvantageous to the U.S. Government. The Directive
    requires that the USD(AT&L) establish objectives and initiatives to implement
    the policy. DoD must also consider using NAMSA for storage, services, and
    consolidated procurement of selected items.

    DoD Directive 2010.9 implements chapter 138, subchapter I of 10 U.S.C. and
    provides the authority to negotiate and conclude ACSAs and ACSA
    implementing arrangements. The policy emphasizes that mutual logistics support
    agreements shall not be used to procure, as a routine or normal source, those
    goods and services reasonably available from U.S. commercial sources. The
    policy requires that the Military Departments document the acquisition or transfer
    of logistics support, supplies, and services because those transactions are subject
    to reciprocation and require reimbursement or replacement in kind.


Maximizing the Use of WSP Agreements
    DoD could improve its use of NAMSA for combined logistics support and reduce
    costs. Specifically, the Army, which has 308 helicopters in the European theater,


                                          6
did not join the Helicopters WSP Agreement and the Navy did not maximize its
use of the C-130 Hercules/P-3 Orion WSP Agreement. DoD Directive 2010.8
states that when the United States and other NATO allies field the same weapon
system, the United States shall join with those allies in a NATO Maintenance and
Supply Organization WSP agreement for combined logistics support, for those
functions that are practicable, unless disadvantageous to the U.S. Government.
The policy also states that the United States shall maximally rely on the
arrangements for NATO combined logistics support.

Helicopters Weapon System Partnership Agreement. The Army, which has
308 helicopters in the European theater, did not join the Helicopters WSP
Agreement. Member nations for the Helicopters WSP Agreement include
Germany, Italy, Spain, Turkey, and the United Kingdom. WSP agreements are
designed to provide time and cost savings through consolidated procurement not
otherwise possible by individual nations and to provide greater contract
flexibility. The Helicopters WSP Agreement provides maintenance, repair, and
supply for helicopters that participating nations use. Among the helicopters
supported by the WSP agreement are the AH-64 Apache, UH-60 Blackhawk, SH-
60 Sea Hawk, and CH-47 Chinook. Instead of joining the Helicopters WSP
Agreement in FY 2002, the Army used an ACSA implementing arrangement
between U.S. Army, Europe (USAREUR) and NAMSA to perform helicopter
component repairs to meet temporary shortages in the Army supply system.2 The
FY 2002 component repair work provided to NAMSA included the cold section
of the T700 engine for Blackhawk helicopters, which requires depot-level repair
capability. USAREUR is not authorized to perform depot-level repair and would
normally send components back to the United States for that work.

The Army Aviation and Missile Command provided USAREUR with the
FY 2003 projected workload and requested that USAREUR use the FY 2003
workload to determine whether the new depot maintenance overhaul standards
required for FY 2004 could be met in theater. The Army Aviation and Missile
Command used the projected FY 2003 workload to identify existing capabilities
and capacities within USAREUR to meet worldwide demands. The FY 2003 and
FY 2004 workloads the Army Aviation and Missile Command projected included
depot-level component repair requirements beyond the maintenance capability of
USAREUR. Based on those projections, USAREUR provided NAMSA an
estimated workload of 604 components (23 cold section engine components for
FY 2002 and an estimated annual workload of 581 component repairables for
FY 2004) that will require some depot-level repair. Although USAREUR
requested NAMSA to provide an estimate for the projected FY 2004 workload,
the FY 2003 workload3 was used to project the FY 2004 workload. The
581 component repairables include the gas turbine section of the T700 series
helicopter engine as well as helicopter main rotor and rotary blades. After
coordination with NAMSA, USAREUR provided the Army Aviation and Missile
Command with a written proposal to meet the projected workload. USAREUR
identified NAMSA as the proposed source of contractor repair that could be

2
ACSAs, which have a $200 million ceiling, are not to be used for routine requirements.
3
As of June 2002, the Army Materiel Command had not approved the FY 2003 workload
requirements.



                                          7
    certified to perform depot-level maintenance on the 581 component repairables
    that are beyond the USAREUR maintenance capability. In addition to the
    308 Army helicopters, the Navy had 10 helicopters and the Air Force had
    8 helicopters in theater. As of June 2002, DoD had not joined the Helicopters
    WSP Agreement.

    C-130 Hercules/P-3 Orion Weapon System Partnership Agreement. The
    Navy did not maximize its use of the C-130 Hercules/P-3 Orion WSP Agreement.
    Member nations of the C-130 Hercules/P-3 Orion WSP Agreement are Belgium,
    Canada, Greece, Italy, Norway, Spain, the United Kingdom, and the United
    States. In 2001, the WSP agreement could have provided about 151 member
    nation aircraft with supply and repair logistics support, including depot-level
    maintenance. The Air Force paid an annual fee of $96,3764 for the United States
    to be a member of the WSP agreement. The membership provides the Air Force
    with an alternative source of repair for unscheduled depot-level maintenance for
    19 C-130 Hercules aircraft stationed and other C-130 Hercules aircraft operating
    in the European theater. The Air Force also used the WSP agreement for
    structural repair work on the C-130 Hercules aircraft. Because the United States
    is a member of the C-130 Hercules/P-3 Orion WSP Agreement, the Navy was
    able to use the agreement as a member. However, as of June 2002, the Navy had
    not shared the annual fee with the Air Force or maximized its use of the C-130
    Hercules/P-3 Orion WSP Agreement.

    The Navy has 16 P-3 Orion aircraft stationed in the European theater. To support
    those aircraft, the Navy generally sends engine components that require depot-
    level repair to Navy depot facilities in the United States for maintenance. The
    Navy depots repair the components and return them to the Navy wholesale supply
    system. Replacement components are shipped to the European theater based on
    worldwide priority levels; the European-based aircraft may not receive
    replacement components until higher priority requisitions have been filled. Naval
    Air Station Sigonella, Italy, performed a proof of concept evaluation for using
    NAMSA as an alternative source of repair for P-3 Orion engine components in
    the European theater. Naval Air Station Sigonella identified the potential for time
    and cost benefits of having six items repaired using a NAMSA contractor.
    However, full benefits were not realized because of complications within the
    contractor source approval process. From June 2000 through June 2001, Naval
    Air Station Sigonella shipped 44 of the same P-3 Orion engine components to
    Navy sources in the United States rather than using the NAMSA contractor. The
    Navy subsequently certified the contractor as a Navy source of repair for nine
    engine components contingent upon the contractor’s incorporation of additional
    requirements.


Procedures for Combined Logistics Support
    The USD(AT&L) did not develop procedures that would implement DoD
    Directive 2010.8 for combined logistics support. Specifically, the USD(AT&L)

    4
        Annual fee paid for 2001. Membership fees are determined annually based on the projected
        workload of each member.



                                                 8
did not develop procedures for the Military Departments to submit common
weapon system requirements to DoD for consideration of logistics support
through a WSP agreement; to coordinate and submit other common DoD
requirements for consideration of NAMSA as a viable alternative source of repair
for combined logistics support; and to join and use WSP agreements governed by
chapter 138, subchapter II, section 2350d of 10 U.S.C.

Submission of Requirements. The USD(AT&L) did not establish procedures
for the Military Departments to coordinate and submit common weapon system
requirements for consideration of logistics support through NAMSA. DoD
Directive 2010.8 states that the United States shall rely maximally on NATO
combined logistics support arrangements, for those functions that are practicable,
unless such an agreement would be disadvantageous to the U.S. Government.
NAMSA could provide support for Navy F/A-18 aircraft and Air Force F-16
aircraft. Those weapon systems are common among other NATO nations, but no
WSP agreement existed for them. DoD Directive 2010.8 also states that DoD
shall consider using the NATO Maintenance and Supply Organization for storage,
services, and consolidated procurement of selected items. NAMSA operates an
automated system that consolidates the requirements of nations to make bulk
procurements to achieve economies of scale. The Military Departments could use
NAMSA as an alternative source to locate and procure long leadtime or obsolete
repair parts unavailable through the DoD wholesale supply system. The
development of procedures would facilitate the Military Departments’
identification and coordination of common DoD requirements to maximally use
other combined logistics support arrangements and may improve readiness by
providing visibility of components outside the DoD supply system. The
USD(AT&L) should be the focal point for coordinating common DoD
requirements.

DoD Directive 2010.8 assigns the USD(AT&L) with the responsibility of
developing initiatives that implement the policy and requires the Military
Departments to incorporate the policy in the planning and programming for
logistics support of deployed U.S. forces. However, Military Departments did not
have the guidance necessary to implement the policy. Army and Navy personnel
responsible for helicopter and P-3 Orion weapon system logistics support did not
know how to submit requirements for consideration of support through a
WSP agreement. Also, Navy personnel were unaware of the role of the
USD(AT&L) Office of International Cooperation in coordinating combined
logistics support between NAMSA and the United States. The International
Cooperation, Armaments Cooperation Atlantic Directorate representative stated
that the Military Departments should determine whether a WSP agreement could
support their common logistics support requirements. Although the Military
Departments are responsible for incorporating DoD policy for NATO logistics in
the planning and programming of logistics support, the USD(AT&L) should also
take a role in the process and ensure that the Military Departments know how to
incorporate DoD policy for combined logistics support in their planning and
programming. The development of procedures to submit common weapon system
requirements to the USD(AT&L) Office of International Cooperation for WSP
agreement support would alleviate the uncertainty of the Military Departments
concerning submission of requirements to NAMSA.



                                    9
    Joining Weapon System Partnership Agreements. The USD(AT&L) did not
    develop procedures for joining WSP agreements. The USD(AT&L) Office of
    International Cooperation is the focal point for the coordination of
    WSP agreements between the United States and NAMSA. Although the
    International Cooperation, Armaments Cooperation Atlantic Directorate
    representative was able to describe the process to join WSP agreements, the
    process was not documented. The representative stated that it is the responsibility
    of the Military Departments to request membership to a WSP agreement from
    NAMSA. However, Army and Navy personnel stated that there was no clear
    understanding of how to join a WSP agreement. Naval Air Systems Command
    representatives stated that they were also unaware of whom to contact to join a
    WSP agreement. Until procedures are formally developed and documented,
    confusion will continue to exist and may deter the Military Departments from
    joining WSP agreements.

    Using Weapon System Partnership Agreements. The USD(AT&L) did not
    develop procedures for using WSP agreements. The Army is using a mutual
    logistics support arrangement to have NAMSA perform work that should be
    performed using a WSP agreement. Specifically, the Army is using an ACSA
    implementing arrangement with NAMSA to have helicopter components repaired
    in Europe. In addition, a review of the USAREUR FY 2001 report on ACSA
    implementing arrangement transactions showed that transactions made under the
    WSP agreement for M-60 tanks had been incorrectly included. Because
    USD(AT&L) had not developed procedures for using WSP agreements, the
    Military Departments may continue to inappropriately use ACSAs and account
    for WSP agreement transactions within the $200 million ACSA ceiling.

    Navy personnel stated that NAMSA was not being used because NAMSA had not
    submitted a bid on any requests for proposal for contractor logistics support.
    DoD personnel were unaware that NAMSA does not compete or bid for DoD
    contract awards. Chapter 138, subchapter II, section 2350d, 10 U.S.C., allows
    NAMSA to contract for logistics support required by the Military Departments
    through the use of WSP agreements. Therefore, once the United States is a
    member of a WSP agreement, the Military Departments may submit logistics
    support requirements directly to NAMSA. The development of procedures to use
    WSP agreements would assist in identifying the potential benefits of using
    NAMSA as an alternative source of repair and would also alleviate the confusion
    of how and when to use NAMSA.


NAMSA Benefits to DoD
    The Military Departments will incur surcharges when using existing WSP
    agreements that the United States is not a member of. In FY 2004, the Army
    could incur about $1 million in additional costs for its projected helicopter
    component maintenance and repair workload. Also, the Navy may experience
    readiness shortfalls while it awaits high-demand, depot-level repairables for the
    P-3 Orion requisitioned from Navy sources. In addition, the Military
    Departments



                                        10
may not realize other potential benefits from using NAMSA to support their
combined logistics support requirements, to include consolidated procurement of
supplies, storage, and services.

NAMSA Surcharges. Member nations of an existing WSP agreement apply a
surcharge for each maintenance and supply transaction performed for a
nonmember nation, in accordance with WSP Committee guidance. In 2001,
NAMSA charged the United States approximately $12,292 in surcharges for
helicopter support. The Army is projecting that it will significantly increase its
use of NAMSA during FY 2004 to meet the new depot maintenance overhaul
standards. Because the United States is not a member of the existing Helicopters
WSP Agreement, NAMSA estimates that approximately $1.2 million5 in
surcharges could be added to FY 2004 workload transactions. Although
USAREUR did not request NAMSA to provide an estimate for the FY 2003
workload, the estimate for the FY 2004 workload was made using the projected
FY 2003 workload. If USAREUR decides to use NAMSA for the FY 2003
projected workload, potential monetary benefits would also apply. NAMSA
estimated the cost for the United States to join the Helicopters WSP Agreement is
between $180,000 to $250,000 annually. Therefore, if the United States joined
the Helicopters WSP Agreement in FY 2004, the Army could avoid the
surcharges to the Army Working Capital Fund of about $1 million. In addition,
the Navy and the Air Force could use the Helicopters WSP Agreement as a
secondary source of repair, which could result in greater cost avoidance for DoD.

Component Repair Lead Time. The Navy may experience readiness shortfalls
while it awaits high-demand, depot-level repairables for the P-3 Orion
requisitioned from Navy sources. Using the C-130 Hercules/P-3 Orion WSP
Agreement could reduce the lead time for those repairables. The P-3 engine
components used in the Naval Air Station Sigonella proof of concept evaluation
were long leadtime items of repair. Those components were sent for repair to a
NAMSA contractor and were repaired and returned within 45 days. Naval Air
Station Sigonella estimated a wait of up to 2 years to obtain replacement parts
required to repair the components through the Navy wholesale supply system. As
a result of the study, Naval Air Station Sigonella identified the potential to
recognize reduced lead times on those components. The Navy could potentially
reduce repair time for P-3 Orion repairables if it fully used the C-130
Hercules/P-3 Orion Weapon System Partnership Agreement.

Benefits of Combined Logistics Support. The Military Departments may not
realize other potential benefits from using NAMSA to support their combined
logistics support requirements. Combined logistics support can include
consolidated procurement of supplies, storage, and services. NAMSA operates
storage facilities in Taranto, Italy, that the Military Departments could use to
pre-position weapon systems or equipment for contingency support. In addition,
DoD may experience delays while awaiting high-demand supplies that may be

5
The estimated $1.2 million in surcharges was computed by WSP agreement member nations
using the forecast of the WSP agreement member workload for 2002. Based on an agreed-upon
formula, a surcharge of 695 Euro for each supply requisition and a surcharge of 2,085 Euro for
each maintenance requisition is applied to nonmember requests. As of June 2002, one Euro was
equal to about .9778 U.S. dollars.



                                         11
    readily available from NATO nations. Using NAMSA, the Military Departments
    may be able to locate supplies from other NATO nations within a reduced time
    frame from that in the DoD supply systems. Through NAMSA, weapon systems
    required for operational commitments can be repaired in theater and not
    necessitate the return of weapon system components to the United States for
    repair. Weapon system components requiring maintenance may also be repaired
    in theater and returned directly to the unit rather than being returned to the
    Military Department wholesale supply inventory. Work performed in theater can
    also result in reduced transportation time and cost.


Conclusion
    The 2001 Annual Report to the President and the Congress, commonly referred to
    as the Annual Defense Review 2001, reports that DoD is transforming its mass
    logistics system into an agile and reliable system that will deliver logistics on
    demand. DoD has developed a long-term logistics reform strategic plan and has
    begun the process of implementing its strategies. The Military Departments are
    also developing and implementing logistics reform strategies, to include
    innovative maintenance and supply concepts. For example, the Army is
    implementing the National Maintenance Program as part of its Single Stock Fund
    concept. The National Maintenance Program outlines the Army’s strategy to
    move toward a centrally coordinated and controlled repair-based logistics system.
    In addition, cooperation with NATO allies in improving the interoperability of
    weapon systems and logistics will also yield efficiencies in DoD operations.
    Those efficiencies could reduce sustainment costs and improve force protection
    while promoting multinational cooperation. Because the Military Departments
    are transforming their logistics concepts, the Military Departments should ensure
    that NAMSA is being considered as an alternative source of repair in their
    logistics reform.


Management Comments on the Finding and Audit Response
    Management Comments. The USD(AT&L) provided comments on the finding
    to address responsible offices within DoD and the use of combined logistics
    support through WSP agreements. The USD(AT&L) stated that the Defense
    Security Cooperation Agency provides DoD support to NAMSA through foreign
    military sales. The Defense Security Cooperation Agency works with each
    Military Department’s security assistance staff that, in turn, coordinates with its
    respective components for participation in WSP agreements. The USD(AT&L)
    stated that procedures exist for the use of NAMSA and are applied routinely.
    (See the USD(AT&L) comments in the Management Comments section of this
    report for the documented procedures.) The USD(AT&L) also requested that the
    Inspector General expound on whether using NAMSA for logistics support
    through the six WSP agreements that DoD is a member of is achieving best value.

    Audit Response. The Defense Security Cooperation Agency and security
    assistance staffs of the Military Departments coordinate participation with their


                                        12
    respective components for DoD support to NAMSA through foreign military
    sales, as the USD(AT&L) stated. However, the focus of this report is DoD use of
    NAMSA to support DoD logistical requirements and the lack of procedures for
    doing so. NAMSA support to DoD logistical requirements would be initiated by
    the logistics community of each Military Department and not from the Defense
    Security Cooperation Agency or from the Military Departments’ security
    assistance staffs. Seven of the eight USD(AT&L) procedures included in the
    Management Comments section describe the process for DoD to provide support
    to NAMSA through foreign military sales, which normally is initiated by
    NAMSA. Although the eighth procedure states that DoD may also receive
    support from NAMSA by identifying logistics requirements through the Office of
    the USD(AT&L), it does not document how the Military Departments should
    initiate and identify those requirements. Although we did not do a thorough
    review of the six WSP agreements that the United States is a member of, we
    found no evidence indicating that DoD was not achieving best value when using
    NAMSA to support DoD logistics requirements.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics revise DoD Directive 2010.8, “Department of
    Defense Policy for NATO Logistics,” to:

          a. Establish procedures for the Military Departments to submit
    common weapon system requirements to the Under Secretary of Defense for
    Acquisition, Technology, and Logistics for consideration of logistics support.

           b. Establish procedures to coordinate common DoD requirements for
    consideration of the North Atlantic Treaty Organization Maintenance and
    Supply Agency as a viable source of repair for combined logistics support.

          c. Establish procedures for the Military Departments to join and use
    weapon system partnership agreements.

    Under Secretary of Defense for Acquisition, Technology, and Logistics
    Comments. The USD(AT&L) nonconcurred, stating that DoD directives are
    policy documents and are not designed to include procedures. The USD(AT&L)
    stated that procedures were in place and were routinely applied. However, the
    Director, International Cooperation will reiterate the procedures to the responsible
    DoD offices.

    Audit Response. USD(AT&L) comments are partially responsive. The
    USD(AT&L) states that procedures are in place and that the Director,
    International Cooperation will reiterate those procedures. We agree that
    procedures are in place for DoD support to NAMSA through the foreign military
    sales program. However, we disagree that procedures are in place for the use of
    NAMSA to support DoD logistics requirements. Those logistics requirements are
    initiated by the Military Department logistics communities, not by NAMSA. As


                                        13
discussed in the report, guidance that defines the responsibilities and procedures
to use NAMSA does not exist. We recognize that updating DoD Directive 2010.8
will require time and resource requirements; therefore should USD(AT&L)
provide an alternative method to revising the Directive that establishes procedures
for the use of NAMSA to support DoD logistics requirements, we would be
amenable to that alternative. However, in the interim, guidance that defines the
responsibilities and detailed processes for submitting and coordinating common
DoD requirements and procedures for joining and using WSP agreements should
be established until final guidance is published or an alternative solution is found.
We request that the USD(AT&L) reconsider his position on the recommendation
and provide comments on the final report.

2. We recommend that the Commander, Army Materiel Command submit
requirements to the Under Secretary of Defense for Acquisition, Technology,
and Logistics for formal consideration of logistics support through the
Helicopters Weapon System Partnership Agreement.

Army Materiel Command Comments. The Commander, Army Materiel
Command nonconcurred, stating that the Army should submit the requirements.
The Army Materiel Command provides support to the combatant commanders to
maintain readiness. The Commander stated that the Army’s use of NAMSA had
been limited and a cost-benefit analysis should be performed to determine
whether NAMSA is cost-effective. The Army Materiel Command also stated that
the report did not address cost sharing for using NAMSA.

Audit Response. The Army comments are not responsive. We agree that DoD
use of NAMSA should be coordinated through the Army. Although the aviation
assets are assigned to USAREUR, the Army component of the U.S. European
Command, the Army Materiel Command is responsible for funding and workload
maintenance and repair requirements for those assets, through the National
Maintenance Program. We also agree that the Army should perform a
cost-benefit analysis to determine whether NAMSA is cost-effective. The
estimated cost for the United States to be a member of the WSP agreement is
between $180,000 to $250,000 annually, as stated in this report. We request that
the Army reconsider its position on the recommendation and provide comments
on the final report.

Additional Comments. Although not required to comment, the Army Security
Assistance Command and USAREUR provided the following comments. For the
full text of the comments, see the Management Comments section of the report.

       Army Security Assistance Command Comments. The Chief, Country
Program Management Division, Europe Directorate stated that the
recommendation to the Army Materiel Command falls under the cognizance of
the Army Security Assistance Command and stated that the command will
coordinate with the Army Aviation and Missile Command to reexamine joining
the Helicopters WSP Agreement. In addition, the Army Security Assistance
Command will review USAREUR use of ACSAs instead of the Helicopters WSP
Agreement for helicopter component repairs.




                                     14
        Audit Response. We disagree with the Army Security Assistance
Command that the recommendation falls under its cognizance. The Army
Materiel Command is responsible for funding and workload maintenance and
repair requirements for those assets, through the National Maintenance Program.
We agree that there should be a review of the ACSAs and WSP agreements.

    U.S. Army, Europe Comments. USAREUR agreed that the use of
NAMSA for combined logistics support could be improved.

3. We recommend that the Commander, Naval Air Systems Command
submit requirements to the Under Secretary of Defense for Acquisition,
Technology, and Logistics for formal consideration of logistics support
through the C-130 Hercules/P-3 Orion Weapon System Partnership
Agreement.

Navy Comments. The Acting Assistant Secretary of the Navy (Research,
Development and Acquisition) concurred with the recommendation to use
NAMSA, upon the establishment of procedures, when NAMSA is cost-effective
and does not negatively impact readiness.




                                   15
Appendix A. Scope and Methodology
   During the survey phase of our audit, we reviewed DoD oversight of WSP
   agreements that DoD supports through the foreign military sales process. In
   addition, we reviewed DoD protection of sensitive data from unauthorized
   disclosure. During the audit phase, we reviewed the oversight of WSP
   agreements that DoD uses to receive combined logistics support through
   NAMSA. We evaluated the process for allocating funds to NAMSA. We also
   reviewed the DoD procurement practices as they apply to NAMSA and the DoD
   processes used to determine which weapon systems would be supported through
   NAMSA.

   We reviewed legislation and evaluated whether the DoD and Military Department
   guidance for WSP agreements issued from 1986 through 2001 ensured that the
   Military Departments provided to NAMSA efficient and effective support through
   the use of foreign military sales cases. We reviewed 10 U.S.C. 2304;
   10 U.S.C. 2460-2466; DoD Directive 5230.11, “Disclosure of Classified Military
   Information to Military Governments and International Organizations,” June 16,
   1992; Army Regulation 380-10, “Security: Technology Transfer, Disclosure of
   Information and Contacts with Foreign Representatives,” February 15, 2001;
   Secretary of the Navy Instruction 5510.31C, “Policy and Procedures for Control
   of Foreign Disclosure in the Department of the Navy,” March 15, 2000; and
   Air Force Manual 16-101, “International Affairs and Security Assistance
   Management,” September 1, 1995, and selectively examined Military Department
   foreign military sales cases with NAMSA to ensure the protection of sensitive
   data from unauthorized disclosure. We reviewed 33 NAMSA foreign military
   sales cases, valued at $69.5 million.

   For DoD use, procurement, and allocation of funds to NAMSA, we reviewed and
   evaluated 10 U.S.C. 2341-2350; the Federal Acquisition Regulation; DoD
   Directive 2010.8; DoD Directive 2010.9; DoD Directive 4151.18, “Maintenance
   of Military Materiel,” August 12, 1992; DoD Directive 5000.1, “The Defense
   Acquisition System,” October 23, 2000; U.S. European Command Directive
   Number 60-8, “Logistic Support Using Acquisition Cross-Servicing Agreements
   (ACSA),” September 19, 2001; DoD Financial Management Regulations; and the
   “Basic Agreement between the NATO Maintenance and Supply Organization
   (NAMSO) and the U.S. European Command (USEUCOM) on Mutual Support,”
   December 10, 1996.

   We reviewed the following 14 WSP agreements.

          •   Advanced Medium Range Air-to-Air Missiles (AMRAAM)

          •   Ammunition

          •   C-130 Hercules/P-3 Orion

          •   CL-289 Drone

          •   Homing All the Way Killer (HAWK)


                                     16
      •   Helicopters

      •   M-60 Tank/M-110 Self-Propelled Howitzer

      •   M-113 Armored Personnel Carrier

      •   MK46 Torpedo

      •   Multiple Launch Rocket System (MLRS)

      •   Nike

      •   Patriot

      •   Stinger

      •   Tube-Launched, Optically-Tracked, Wire-Guided (TOW) Missiles

See Appendix C for a complete list of established NAMSA WSP agreements and
which Military Department supports or is a member of which agreements. We
reviewed the following eight ACSA implementing arrangements.

      •   Implementing Arrangement EC-NM-01 between DoD and NAMSA
          concerning Mutual Logistics Support

      •   Implementing Arrangement AR-NM-04 between NAMSA and
          USAREUR concerning Logistics Supply, Support, and Services for
          the Multiple Launch Rocket System (MLRS)

      •   Implementing Arrangement AR-NM-06 between NAMSA and
          USAREUR on Mutual Emergency Support for the Patriot Weapon
          System

      •   Implementing Arrangement AR-NM-07 between NAMSA and
          USAREUR concerning the Exchange of Patriot Weapon System
          Logistics Support

      •   Implementing Arrangement AR-NM-10 between NAMSA and
          USAREUR concerning Ammunition Demilitarization

      •   Implementing Arrangement AR-NM-09 between NAMSA and
          USAREUR concerning LANCE Weapon System Logistics Support

      •   Implementing Arrangement AR-NM-15 between NAMSA and
          USAREUR concerning Transportation, Receipt, Repair, Modification,
          Testing, and Return of Defense Business Operations Fund (DBOF)
          Items-General Support Maintenance Program for Use With Different
          Systems

      •   Implementing Arrangement AR-NM-21 between NAMSA and
          USAREUR concerning the Improved Tow Acquisition System (ITAS)


                                 17
We analyzed the processes related to DoD support to and from NAMSA by:

       •   conducting interviews at USD(AT&L) offices of the Deputy Under
           Secretary of Defense (Logistics and Materiel Readiness) and
           International Cooperation, Armaments Cooperation Atlantic
           Directorate; the Office of the Under Secretary of Defense for Policy;
           the Under Secretary of Defense (Comptroller)/Chief Financial Officer;
           the General Counsel of the Department of Defense; and the Joint Staff
           for oversight and policy for combined logistics;

       •   conducting interviews at the Defense Security Cooperation Agency;
           the Army Security Assistance Command; the Navy International
           Programs Office; the Office of the Deputy Under Secretary of the
           Air Force (International Affairs); the Army Materiel Command; the
           Air Force Materiel Command; and Warner Robins Air Logistics
           Center for use of NAMSA, adequate oversight of WSP agreements,
           and ensuring that sensitive data was protected;

       •   visiting the Army Aviation and Missile Command; the Army Tank-
           automotive and Armaments Command; and the Naval Air Systems
           Command to evaluate the support DoD provides to NAMSA and
           potential NAMSA use to determine the processes to receive support
           from NAMSA;

       •   visiting the U.S. Mission to NATO and NAMSA to determine support
           to and from DoD;

       •   visiting the Defense Finance and Accounting Service, Europe to
           evaluate the processes used to allocate funds;

       •   visiting the U.S. European Command; USAREUR headquarters;
           U.S. Naval Forces Europe headquarters; U.S. Air Forces in Europe
           headquarters; the Army 21st Theater Support Command; Naval Air
           Station Sigonella, Italy; Naval Inventory Control Point Philadelphia;
           the Army Regional Contracting Center, Wiesbaden, Germany; and the
           Navy Regional Contracting Center, Naples, Italy, to determine
           procurement practices and processes used to allocate funds; and

       •   identifying WSP agreements that the Military Departments may
           benefit from joining or using and the potential for maximizing
           combined logistics support arrangements.

We performed this audit from September 2001 through July 2002 in accordance
with generally accepted government auditing standards.

Use of Computer-Processed Data. We did not use computer-processed data to
perform this audit.

General Accounting Office High-Risk Area. The General Accounting Office
has identified several high-risk areas in DoD. This report provides coverage of
the Inventory Management high-risk area.


                                   18
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the Military Departments’ management controls related to DoD
    support to and from NAMSA. Specifically, we reviewed the Military
    Departments’ evaluations of the logistics controls for the maintenance and supply
    support of DoD weapon systems. In addition, we reviewed the management
    controls over support provided to NAMSA through the foreign military sales
    process. Because we did not identify a material weakness, we did not assess
    management’s self-evaluation.

    Adequacy of Management Controls. The Military Departments’ management
    controls were adequate in that we identified no material management control
    weaknesses.




                                       19
Appendix B. Prior Coverage
    During the last 5 years, the General Accounting Office and the Inspector General
    of the Department of Defense have issued the following reports discussing the
    50-percent rule. Unrestricted General Accounting Office reports can be accessed
    over the Internet at http://www.gao.gov. Unrestricted Inspector General of the
    Department of Defense reports can be accessed at
    http://www.dodig.osd.mil/audit/reports/.


General Accounting Office
    General Accounting Office Report No. GAO-02-95, “Depot Maintenance:
    Management Attention Required to Further Improve Workload Allocation Data,”
    November 9, 2001

    General Accounting Office Report No. GAO/NSIAD-00-69, “Depot
    Maintenance: Future Year Estimates of Public and Private Workloads Are Likely
    to Change,” March 1, 2000

    General Accounting Office Report No. GAO/NSIAD-99-154, “Depot
    Maintenance: Workload Allocation Reporting Improved, but Lingering Problems
    Remain,” July 13, 1999

    General Accounting Office Report No. GAO/T-NSIAD-98-175, “Defense Depot
    Maintenance: Public and Private Sector Workload Distribution Reporting Can Be
    Further Improved,” July 23, 1998

    General Accounting Office Report No. GAO/NSIAD-98-41, “Defense Depot
    Maintenance: Information on Public and Private Sector Workload Allocations,”
    January 20, 1998


Inspector General of the Department of Defense (IG DoD)
    IG DoD Report No. D-2001-033, “Government Performance and Results
    Act-Unfunded Depot Maintenance Requirements,” January 12, 2001

    IG DoD Report No. 99-192, “Depot Maintenance Capacity and Utilization
    Measurement,” June 23, 1999




                                       20
Army
       Army Audit Agency Audit Report No. AA 01-360, “Depot Maintenance
       Workload Reporting FY 00 and Outyears,” July 12, 2001

       Army Audit Agency Audit Report No. AA 00-363, “Depot Maintenance
       Workload Reporting FY 00-FY 04,” September 11, 2000

       Army Audit Agency Audit Report No. AA 00-362, “Depot Maintenance
       Workload Reporting FY 99,” August 31, 2000

       Army Audit Agency Audit Report No. AA 98-202, “Depot-Level Maintenance
       Workload Reporting,” June 1, 1998


Navy
       Naval Audit Service Report No. N2000-0035, “Allocation of Depot Maintenance
       Workload Between Public and Private Sectors,” August 10, 2000




                                        21
Appendix C. Weapon System Partnership
            Agreements
   Two or more NATO nations that use the same weapon system can establish a
   WSP agreement to support the system. NAMSA provides logistics support
   through 19 WSP agreements. DoD is a member of 6 WSP agreements and
   provides support for 13, as shown in the following table.

                   NAMSA Weapon System Partnership Agreements
                                                           DoD Participation
   WSP Agreement                                         Member        Support
   Air defense
      CL-289 Drone                                            —           —
      SSSB-DPDS* Surveillance System                          —           —
   Artillery & tracked vehicles
      Ammunition                                             Army        —
      M-60 Tank/M-110 Self-Propelled Howitzer                Army       Army
      M-109 Self-Propelled Howitzer                           —         Army
      M-113 Armored Personnel Carrier                         —         Army
      Towed Artillery                                         —          —
   Aviation
     C-130 Hercules/P-3 Orion                            Air Force    Air Force
     Helicopters                                            —          Army
   Naval
     MK46 Torpedo                                             —         Navy
   Rockets and missiles
     AIM-120 Advanced Medium Range
        Air-to-Air Missiles (AMRAAM)           —                      Air Force
     High-Speed Anti-Radiation Missiles (HARM) —                         —
     Homing All the Way Killer (HAWK)          —                       Army
     Maverick                                  —                         —
     Multiple Launch Rocket System (MLRS)     Army                     Army
     Nike                                      —                       Army
     Patriot                                  Army                     Army
     Stinger                                   —                       Army
     Tube-Launched, Optically-Tracked,
        Wire-Guided (TOW) Missiles            Army                      Army
   *Ship-Shore Ship-Buffer Data Processing Display System.




                                           22
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
  Director, International Cooperation
     Director, Armaments Cooperation Atlantic Directorate
Under Secretary of Defense for Policy
  Assistant Secretary of Defense (International Security Affairs)
     Director, Defense Security Cooperation Agency
  Defense Advisor, U.S. Mission to NATO
     Director, Infrastructure, Logistics and Civil Emergency Planning Division
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
General Counsel of the Department of Defense

Department of the Army
Commander, Army Materiel Command
  Commander, Army Security Assistance Command
  Commander, Aviation and Missile Command
  Commander, Tank-automotive and Armaments Command
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Commander, Naval Air Systems Command
Commander, Naval Supply Systems Command
  Commander, Naval Inventory Control Point Philadelphia
Auditor General, Department of the Navy
Commander, Naval Air Station Sigonella

Department of the Air Force
Commander, Air Force Materiel Command
  Commander, Warner Robins Air Logistics Center
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force




                                          23
Unified Commands
Commander, U.S. European Command
  Commander, U.S. Army, Europe
  Commander, U.S. Naval Forces Europe
  Commander, U.S. Air Forces in Europe

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          24
Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                       25
Final Report
 Reference




Revised




               26
     Final Report
      Reference




     Revised




     Page 13




27
28
Department of the Army Comments




                    29
30
31
32
33
Final Report
 Reference




Page 18
Revised

Page 22




               34
Department of the Navy Comments




                    35
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Evelyn R. Klemstine
A. Dahnelle Alexander
Frank J. Kelly
Christine M. McIsaac
Captain Gregory W. Lewis, U.S. Marine Corps
Elizabeth N. Shifflett
